TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Information Technology Enterprise
                      Governance Structure Needs Further
                       Process Improvements to Ensure
                              Adequate Oversight



                                           July 31, 2008

                              Reference Number: 2008-20-134




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 31, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Information Technology Enterprise
                             Governance Structure Needs Further Process Improvements to Ensure
                             Adequate Oversight (Audit # 200720033)

 This report presents the results of our review of the tiered-program management structure
 implemented by the Internal Revenue Service (IRS) for reporting and reviewing status and
 results on its information technology (IT) projects. The overall objective of this review was to
 determine whether the IRS has established and is following adequate internal controls to manage
 all IT investment projects within the new enterprise governance model in support of the IRS
 mission and goals. Due to the critical nature of this area, the Chief Information Officer asked the
 Treasury Inspector General for Tax Administration to perform this audit, which was included as
 part of the Fiscal Year 2007 Information Systems Programs business unit’s Annual Audit Plan
 coverage of IRS modernization efforts.

 Impact on the Taxpayer
 The IRS estimated that it would spend $1.4 billion on IT products and services in Fiscal
 Year 2007. While the IRS has made progress in implementing its IT enterprise governance
 structure, additional actions are needed to address current weaknesses in providing effective
 oversight and management of all IT projects. This will help to ensure that the IRS uses funds
 efficiently and effectively to provide oversight and control of all IT projects.
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight



Synopsis
To better manage IT investments, the Chief Information Officer outlined a business commitment
of implementing an IRS enterprise-wide IT tiered-program management structure.1 This
commitment requires that all IT investment projects follow a tiered-program management
structure for reporting and reviewing project status and results. To implement the new
tiered-program management structure, the IRS designed an enterprise governance model that
assigns all IT projects to an appropriate executive oversight body. This program management
concept makes a significant change to IRS procedures by empowering executive oversight
bodies with the authority to make project cost, schedule, and scope decisions.
In Fiscal Year 2006, the IRS expanded the roles and responsibilities of the Program Control and
Process Management Division2 to incorporate and establish direction for the new enterprise
governance model. Since then, the Division has made significant progress in directing,
developing, and implementing tiered-program management activities. For example, it has
developed and distributed standardized reporting templates with documented processes and
procedures for the executive steering committees. In addition, the IRS has created a master list
of IT projects to track and assign oversight. Each IRS organization has formed or is planning to
form its own individual Program Management Office to execute the new tiered-program
management processes and procedures while providing oversight and management to assigned
IT projects.
The IRS has been successful at improving program management and oversight activity
awareness and communication throughout the organization. This is evident with the
participation from IRS organizations in the newly formed Governance Working Group that
provides a forum to share and network in the design, development, and formation of the
tiered-program management structure, processes, and procedures. The Group meets biweekly
and performs an important function by reviewing new tiered-program management concepts
before they are submitted to senior IRS executives for approval and implementation.
While the IRS has made progress in implementing its tiered-program management structure,
additional actions are needed to address current weaknesses in providing effective oversight and
management of all IT projects. The IRS has not fully:
    •   Documented policies and procedures for developing a complete portfolio of IT projects.
    •   Completed the setup of Program Management Offices for all IRS organizations.


1
 See Appendix IV for a glossary of terms.
2
 The Program Control and Process Management Division in the Modernization and Information Technology
Services organization includes the Program Governance Office and the Program Control Office. Separately, these
two offices guide IT tiered-program management governance and control activities.
                                                                                                                 2
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight



   •   Implemented the health assessment process.
   •   Provided consistent and continual monitoring and oversight of major IT projects through
       the executive steering committees.
Completing actions to address the above conditions will help ensure that the enterprise
tiered-program management structure provides effective oversight and control of all IT projects.

Recommendations
We recommended that the Chief Information Officer 1) work with other IRS executives to
develop a complete and accurate master IT project list with a standard set of IT terms that have
been approved and communicated to all IRS organizations, 2) ensure that the proposed
governance directive is approved and communicated through all levels of the IRS, 3) establish
formal policies and procedures to ensure that the health assessment process is consistently
applied and followed across all IRS organizations, and 4) ensure that policies and procedures are
developed or revised to require control organizations to review all assigned major IT projects
monthly and present projects to the appropriate governance board’s attention when established
thresholds are exceeded.

Response
IRS officials agreed with all of our recommendations. The IRS plans to 1) build on work already
completed, incorporate projects and operational applications into the IRS portfolio, and develop,
approve, and communicate formal policies and procedures to continually update the portfolio
and a standard set of IT terms 2) obtain approval of the governance directive and communicate
guidance to foster enterprise-wide adherence to the governance process, 3) conduct an
enterprise-wide campaign of education and sustained support for the control organizations to
ensure consistency of the health assessment process, and 4) ensure that all assigned major IT
projects are reviewed monthly and are presented to the appropriate governance board’s attention
when established thresholds are exceeded. Management’s complete response to the draft report
is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                   3
                       The Information Technology Enterprise Governance Structure
                                  Needs Further Process Improvements
                                      to Ensure Adequate Oversight




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Progress Has Been Made to Implement Tiered-Program Management
          Activities……………………………………………………………………Page 3
          A Complete Tiered-Program Management Structure Has Not Been
          Fully Implemented to Ensure Effective Oversight and Control of All
          Information Technology Projects .................................................................Page 3
                    Recommendations 1 through 3: .................................................. Page 8

                    Recommendation 4: .................................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Enterprise Governance Model...............................................Page 19
          Appendix VI – Progress in Governance and Control Processes...................Page 21
          Appendix VII – Management’s Response to the Draft Report.....................Page 23
      The Information Technology Enterprise Governance Structure
                 Needs Further Process Improvements
                     to Ensure Adequate Oversight




                    Abbreviations

IRS           Internal Revenue Service
IT            Information Technology
                      The Information Technology Enterprise Governance Structure
                                 Needs Further Process Improvements
                                     to Ensure Adequate Oversight




                                               Background

The Internal Revenue Service (IRS) estimated that it would spend $1.4 billion on information
technology (IT) products and services in Fiscal Year 2007. To better manage the IT investments,
the Chief Information Officer outlined a business commitment to implement an IRS
enterprise-wide IT tiered-program management
structure.1 This commitment requires that all IT
investment projects follow a tiered-program                  All IT investment projects must
                                                                  follow a tiered-program
management structure for reporting and reviewing                management structure for
project status and results. This structure assigns projects  reporting and reviewing project
to executive-level committees for oversight based on the             status and results.
cost of the project and other factors as determined by the
IRS and to Program Management Offices for more
direct control and performance assessments.
To implement the new tiered-program management structure, the IRS designed an enterprise
governance model that assigns all IT projects to an appropriate executive oversight body. The
enterprise governance model is presented in Appendix V. This program management concept
makes a significant change to IRS procedures by empowering executive oversight bodies with
the authority to make project cost, schedule, and scope decisions. Another major change
includes expanding the number of oversight committees and redefining the reporting structure to
include executive steering committees and organization-level and management-level boards
throughout the IRS.
As part of the tiered-program management structure, the IRS is implementing a control process
requiring monthly assessments of all IT projects. These assessments (referred to as “health
assessments”) are the primary tools used by the IRS to monitor key performance information on
IT projects such as cost, schedule, and scope. The IRS plans to implement the health assessment
process throughout all of its organizations.
This review was performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, during the period June through
December 2007. During the audit, the IRS was executing new processes and making progress in
implementing the tiered-program management structure. We communicated the interim results
of our review and suggestions for improvement to Modernization and Information Technology
Services organization officials on December 10, 2007. Additional changes and progress might
have occurred since the conclusion of our analyses.


1
    See Appendix IV for a glossary of terms.
                                                                                         Page 1
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 2
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight




                                     Results of Review

Progress Has Been Made to Implement Tiered-Program Management
Activities
In Fiscal Year 2006, the IRS expanded the roles and                 The Program Control and
responsibilities of the Program Control and Process              Process Management Division
Management Division2 to incorporate and establish direction      has made significant progress
for the new enterprise governance model. Since then, the            directing, developing, and
                                                                  implementing tiered-program
Division has made significant progress in directing,                 management activities.
developing, and implementing tiered-program management
activities. For example, it has developed and distributed
standardized reporting templates with documented processes and procedures for the executive
steering committees. In addition, the IRS has created a master list of IT projects to track and
assign oversight. Each IRS organization has formed or is planning to form its own individual
Program Management Office to execute the new tiered-program management processes and
procedures while providing oversight and management to assigned IT projects.
The IRS has been successful at improving program management and oversight activity
awareness and communication throughout the organization. This is evident with the
participation from IRS organizations in the newly formed Governance Working Group that
provides a forum to share and network in the design, development, and formation of the
tiered-program management structure, processes, and procedures. The Group meets biweekly
and performs an important function by reviewing new tiered-program management concepts
before they are submitted to senior IRS executives for approval and implementation.

A Complete Tiered-Program Management Structure Has Not Been
Fully Implemented to Ensure Effective Oversight and Control of All
Information Technology Projects
While the IRS has made progress in implementing its tiered-program management structure,
additional actions are needed to address current weaknesses in providing effective oversight and
management of all IT projects. The IRS has not fully:
    •   Documented policies and procedures for developing a complete portfolio of IT projects.

2
 The Program Control and Process Management Division in the Modernization and Information Technology
Services organization includes the Program Governance Office and the Program Control Office. Separately, these
two offices guide IT tiered-program management governance and control activities.
                                                                                                        Page 3
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight


    •   Completed the setup of Program Management Offices for all IRS organizations.
    •   Implemented the health assessment process.
    •   Provided consistent and continual monitoring and oversight of major IT projects through
        the executive steering committees.
Completing actions to address the above conditions will help ensure that the enterprise
tiered-program management structure provides effective oversight and control of all IT projects.

The IRS has not documented policies and procedures for developing a complete
portfolio of IT projects
According to the Government Accountability Office Information Technology Investment
Management: A Framework for Assessing and Improving Process Maturity,3 an organization
should have documented policies and procedures for identifying and collecting information
about its IT projects and systems. Specifically, the responsibility for submitting, updating, and
maintaining relevant inventory information about each project should be explicitly assigned. In
addition, the policies and procedures should provide common definitions for IT investment
portfolio categories that are generally understandable by all stakeholders.
The IRS created a master list of IT projects based on seven available sources4 that identify
project activity. Our reconciliation of the IT projects from these sources to the master IT list was
not conclusive because naming conventions were not consistent for all projects, and source
names did not always match the names included on the master IT list. For example, the New
Portal Environment Project is the project name on the master IT list, while the Federal
Information Security Management Act list identifies the project as “ISS (Infrastructure Shared
Services), Web Hosting, -- Employee User portal (EUP), -- Registered User Portal (RUP), --
Citrix, Core Services, -- Application Messaging and Data Access Services (AMDAS), --
Enterprise Directory and Authentication Service (EDAS).” The difference in the project names
and lists might be due to having several IRS functions maintain separate IT project lists for
consolidation to the master list.
The IRS has been working to resolve these issues. However, the current methodology to identify
the population of IT projects is extremely complex and is constantly changing. Policies and
procedures to ensure that all IT projects are captured in the portfolio have not been documented.
The IRS is further challenged with different interpretations of key IT terms used throughout the
organization. These conditions make it difficult to identify the type, size, and importance of


3
 GAO-04-394G, dated March 2004.
4
 The seven sources we reviewed were the Federal Information Security Management Act [part of the
E-Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002)]; the Applications Development
organization; the Capital Planning and Investment Control; the Enterprise Transition Strategy; the As-Built
Architecture; and the ProSight system for the Department of Treasury and the IRS.
                                                                                                        Page 4
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


projects for tracking and reporting. Without a complete and accurate master list, the IRS does
not have adequate assurance that all required IT projects have been identified and placed under
proper governance authority for appropriate oversight and review.
Management Action: Subsequent to our audit fieldwork, the IRS provided information about its
efforts to assign unique identification codes to enable it to clearly identify, distinguish, and
control IT projects. The IRS is currently completing this assignment process. In addition, the
IRS provided us with information about its ability to identify specific IT project releases in the
master IT list.

The IRS has not completed the setup of Program Management Offices
The new enterprise governance model relies heavily on the formation of individual Program
Management Offices in each IRS organization. These Program Management Offices work with
the Program Control and Process Management Division to ensure that the new procedures and
control processes are appropriately executed.
As of December 2007, the formation of all required Program Management Offices was not
completed. For example, Program Management Offices were not established for 3 of
6 Associate Chief Information Officer organizations and 4 of 10 IRS functions. Appendix VI
provides additional details on the IRS’ progress in implementing the Program Management
Offices.
According to IRS officials, all of the required Program Management Offices will be
implemented in the future. However, formal authority has not been established to require,
review, or ensure that the IRS organizations comply with this requirement or any of the policies
and procedures developed by the Program Control and Process Management Division. Without
a consistent approach and required compliance with policies and procedures from the Program
Control and Process Management Division, the enterprise governance processes might not be
executed effectively to ensure that all required IT projects are provided with the appropriate
governance, oversight, and review.

The IRS has not fully implemented the health assessment process
Each individual IT project team is required to perform a
self-assessment (termed a health assessment) of its IT project       Health assessments
and report the status of seven key performance areas: cost,      provide critical information
schedule, scope, risk, staffing, organizational change, and       for the entire governance
                                                                    and control process.
technical features. To communicate the purpose, process, and
procedures for performing health assessments, the Program
Control and Process Management Division issued the Project Status Survey Assessor Guide on
May 14, 2007, and the Project Status Survey User Guide on May 24, 2007. Although these
Guides were issued in May 2007, the Modernization and Information Technology Services


                                                                                           Page 5
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight


organization Enterprise Governance board did not formally approve the guidance until
November 19, 2007.
If a health assessment identifies significant issues in two or more of the seven key performance
areas, IRS program management must conduct in-depth interviews with the IT project team to
identify causes and develop corrective actions. Health assessment results and any corrective
actions should be documented and reported to appropriate IRS officials, including assigned
executive oversight committees. The executive oversight committees use these results to make
informed decisions regarding the IT projects.
The IRS has not established formal policies and procedures to require compliance with the health
assessment process. Our interviews with IRS officials determined that some IRS organizations
were not fully aware of the monthly health assessment processes and procedures. In addition,
the Applications Development organization has accepted responsibility for performing IT project
health assessments for four other IRS organizations.5
Based on interviews with IRS officials and reviews of a judgmental sample of health
assessments, we determined that the health assessment process was not adequately implemented
across all IRS organizations. We identified the following concerns with the health assessment
process:
    •   Monthly health assessments were not conducted on all IT projects. During our
        review of monthly health assessment summaries from May through August 2007, we
        found that the Applications Development organization did not conduct health
        assessments on 22 IT projects from 4 other IRS organizations. Further, control processes
        were not established to conduct health assessments by two of the Associate Chief
        Information Officer organizations. As a result, these 2 organizations did not conduct
        health assessments on 39 assigned IT projects. Major projects without health
        assessments included the Enterprise Disk Encryption Phase II, the Appeals Automated
        Environment, and the Counsel Automated System Environment.
    •   Corrective actions were not always developed for significant problems identified by
        health assessments. Our sample review of health assessments included two projects
        (the New Portal Implementation - major project, and the Tier 2 Encryption - non-major
        project) in which the IRS identified significant problems in several key areas such as
        cost, schedule, scope, and staffing. The responsible IRS program management did not
        conduct the required in-depth reviews with the IT project teams to discuss the problems
        and develop appropriate corrective actions.



5
 The Applications Development organization performs IT project health assessments for the Criminal Investigation
and Agency-Wide Shared Services Divisions; the Human Capital Office; and the Research, Analysis, and Statistics
function.
                                                                                                         Page 6
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


   •   Health assessments did not always measure and report the status of all key
       performance indicators for IT projects. Several IRS organizations were using
       different methods to conduct the health assessment processes. These organizations did
       not measure and report on all seven IT project key performance indicators (see
       Appendix VI for more information). Instead, the organizations reported on a subset of
       the key performance indicators based on processes they used prior to the tiered-program
       management initiative. Until the organizations begin reporting on all key performance
       indicators, the IRS will have inconsistent oversight and reporting of IT project
       development efforts.
Without consistent application of established health assessment procedures, continual and
effective reporting and monitoring of IT project performance might not occur. Also, significant
issues and proposed corrective actions might not be identified in a timely manner and brought to
the attention of appropriate IRS officials for oversight and decision-making purposes.

The executive steering committees do not provide consistent and continual
monitoring and oversight of all major IT projects
The executive steering committees are responsible for overseeing assigned major and non-major
IT projects. During monthly meetings, the executive steering committees approve project
proposals and milestone exits. They also review and make decisions based on risks and on cost
and schedule variances. The 11 executive steering committees did not provide consistent and
continual oversight of all assigned major IT projects. For example:
   •   The Security Services and Privacy Executive Steering Committee did not discuss the
       Homeland Security Presidential Directive-12 Project for 5 months.
   •   The Infrastructure and the Criminal Investigation Executive Steering Committees were
       not tracking the status of IT project corrective action items on a monthly basis.
According to IRS officials, the executive steering committees do not review all assigned IT
projects monthly because they provide governance only on an “as needed” or “exception” basis.
In addition, executive steering committee charters do not detail specific duties and
responsibilities with documented processes and procedures for reviewing assigned major IT
projects.
Without providing adequate and consistent oversight for IT projects, the executive steering
committees might not be aware of IT project health problems affecting major IRS initiatives.
For example, the Security Services and Privacy Executive Steering Committee is assigned to
oversee the Homeland Security Presidential Directive-12 Project. However, we found that the
Committee did not discuss or oversee the results of this Project for a 5-month period. As




                                                                                          Page 7
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight


reported in a prior audit report,6 the Project experienced significant issues and problems resulting
in the inefficient use of potentially $3.5 million. Another example is the Electronic Fraud
Detection System Project,7 which did not have continual oversight and resulted in the inefficient
use of potentially $22.7 million.
Management Action: During our review, the IRS updated the proposed governance directive to
include higher level approval authority by the Deputy Commissioners. This ensures that the
enterprise-proposed governance directive will cover the entire IRS organization. In addition, the
IRS revised the directive to require that executive steering committees track project action items
to completion.

Recommendations
The Chief Information Officer should:
Recommendation 1: Work with other IRS executives to develop a complete and accurate
master IT project list with formally approved and documented policies and procedures to
continually update the portfolio. These procedures should include a standard set of IT terms that
have been approved and communicated to all IRS organizations.
        Management’s Response: The IRS agreed with this recommendation. Building on
        work already completed, the IRS master IT project list will incorporate projects and
        operational applications into the IRS portfolio. The IRS will use the governance process
        to develop, approve, and communicate formal policies and procedures to continually
        update the portfolio as well as a standard set of IT terms.
Recommendation 2: Ensure that the proposed governance directive is approved and
communicated through all levels of the IRS and work with IRS executives to require all IRS
organizations to adhere to the Program Control and Process Management Division governance
processes.
        Management’s Response: The IRS agreed with this recommendation and will work
        with executives from both the business and technology organizations to obtain approval
        of the governance directive and to communicate guidance to foster enterprise-wide
        adherence to the governance processes.
Recommendation 3: Establish formal policies and procedures to ensure that the health
assessment process is consistently applied and followed across all IRS organizations.

6
  Lack of Proper IRS Oversight of the Department of the Treasury HSPD–12 Initiative Resulted in Misuse of
Federal Government Resources (Reference Number 2008-20-030, dated December 14, 2007).
7
  The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006) and Oversight of the Electronic Fraud Detection
System Restoration Activities Has Improved, but Risks Remain (Reference Number 2007-20-052, dated
March 29, 2007).
                                                                                                       Page 8
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


       Management’s Response: The IRS agreed with this recommendation. It will issue a
       directive and guidance and will conduct an enterprise-wide campaign of education and
       sustained support for the control organizations to ensure consistency of the health
       assessment process.
Recommendation 4: Ensure that policies and procedures are developed or revised to require
control organizations to review all assigned major IT projects monthly and present projects to the
appropriate governance board’s attention when established thresholds are exceeded.
       Management’s Response: The IRS agreed with this recommendation and will
       develop a directive and guidance to ensure that all assigned major IT projects are
       reviewed monthly by the appropriate control organizations and are presented to the
       appropriate governance board’s attention when established thresholds are exceeded.




                                                                                           Page 9
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has established and is
following adequate internal controls to manage all IT investment projects within the new
enterprise governance model in support of the IRS mission and goals. Due to the critical nature
of this area, the Chief Information Officer asked the Treasury Inspector General for Tax
Administration to perform this audit. To accomplish the objective, we:
I.     Determined whether the IRS developed a master list of all IT investment projects and a
       reliable process to update the list on a regular basis.
       A. Interviewed the Acting Director, Portfolio Estimation Delivery Services, to determine
          the process for developing the master list.
       B. Reviewed the completed master IT list.
II.    Determined whether the Program Control and Process Management Division has applied
       adequate oversight and authority to ensure that established program governance processes
       are followed by all IRS organizations.
       A. Interviewed the Director, Program Control and Process Management Division, to
          determine the current status of the governance program.
       B. Determined the areas, functions, and organizations within the IRS that have or have
          not implemented the proposed governance processes.
III.   Determined whether adequate oversight and reporting was developed at each level of the
       IRS organization to ensure compliance with the new enterprise governance structure.
       A. Reviewed areas that have not developed a formal Program Management Office or
          applied the new program governance process and procedures.
       B. Reviewed areas that have developed a formal Program Management Office and
          instituted mature program governance processes, controls, and procedures.
       C. Tested the level of compliance with the health assessments.
IV.    Determined whether the governing bodies (e.g., executive steering committees,
       organization-level governance boards, and management-level governance boards)
       followed approved policies, procedures, and templates outlined by the Program Control
       and Process Management Division.



                                                                                        Page 10
                The Information Technology Enterprise Governance Structure
                           Needs Further Process Improvements
                               to Ensure Adequate Oversight


       A. Determined whether established documents were being developed and delivered with
          appropriate guidelines followed.
       B. Determined whether the use of contractors for governance responsibilities is an
          efficient use of resources for the IRS.

Health Assessment Sample Selection Methodology
We judgmentally selected a sample of 21 project health assessments from a population of
approximately 598 projects involving 7 IRS organizations. According to the health assessment
procedures, each IT project team might not have to perform a monthly health assessment if the
Program Management Office does not require an assessment that month. Therefore, there is no
one-to-one relationship between the number of health assessments and the number of projects.
We judgmentally selected the sample because we were not going to project the results over the
entire population. Figure 1 identifies the 7 organizations and the 21 projects we sampled.




                                                                                        Page 11
                     The Information Technology Enterprise Governance Structure
                                Needs Further Process Improvements
                                    to Ensure Adequate Oversight


                           Figure 1: Health Assessment Project Sample

                     Organization                         Health Assessment Project Name
                                                     Correspondence Examination Automated
                                                     System-Major-WINTEL
                                                     Notice Print Processing
                                                     Correspondence Imaging System Release 1
 Associate Chief Information Officer,                Operations and Maintenance
 Applications Development                            Correspondence Imaging System Release 2
                                                     Milestone 4
                                                     Business Master File Document Specific
                                                     Interim Revenue Accounting Control System
                                                     Project
                                                     Document and Imaging Management
 Associate Chief Information Officer,                Enterprise Application Integration Broker
 Enterprise Services                                 New Portal Implementation Project Release 1.1
                                                     Infrastructure Roadmap Initiative Phase III
 Associate Chief Information Officer,                Server Consolidation and Virtualization
 Enterprise Operations                               Tier 1 Encryption for Offsite Storage
                                                     Tier 2 Encryption
 Small Business/Self-Employed Division               Expanded Compliance Data Warehouse
                                                     Bankruptcy Law Advisory Rules Engine
                                                     Form 94x to Service Center Recognition/Image
                                                     Processing System
                                                     Centralized Contact Center Forecasting and
 Wage and Investment Division
                                                     Scheduling Release 1a
                                                     Centralized Contact Center Forecasting and
                                                     Scheduling Release 1b
 Tax Exempt and Government Entities                  Tax Exempt and Government Entities
 Division                                            Reporting and Electronic Examination System
                                                     Issue Management System Integration
 Large and Mid-Size Business Division
                                                     Decision Support and Data Capture
Source: Individual IRS organization project lists.




                                                                                           Page 12
                The Information Technology Enterprise Governance Structure
                           Needs Further Process Improvements
                               to Ensure Adequate Oversight


                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Phung-Son Nguyen, Audit Manager
Wallace Sims, Senior Auditor
Charlene Elliston, Auditor
Suzanne Noland, Auditor
Linda Screws, Auditor




                                                                                      Page 13
               The Information Technology Enterprise Governance Structure
                          Needs Further Process Improvements
                              to Ensure Adequate Oversight


                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Associate Chief Information Officer, Enterprise Services OS:CIO:ES
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 14
                The Information Technology Enterprise Governance Structure
                           Needs Further Process Improvements
                               to Ensure Adequate Oversight


                                                                                Appendix IV

                                Glossary of Terms

Appeals Automated Environment        A major project that provides a fully integrated office
Project                              automation environment and IT support to the IRS
                                     Appeals function.
Bankruptcy Law Advisory Rules        A non-major project for web-based decision support
Engine Project                       answering incoming calls from taxpayers by the
                                     Centralized Insolvency site at the Philadelphia Campus.
Business Master File                 The IRS database that consists of Federal tax-related
                                     transactions and accounts for businesses. These include
                                     employment taxes, income taxes on businesses, and excise
                                     taxes.
Business Master File Document        A major project that accounts for annual changes to
Specific Project                     Business Master File forms processing.
Campus                               The data processing arm of the IRS. The campuses
                                     process paper and electronic submissions, correct errors,
                                     and forward data to the Computing Centers for analysis
                                     and posting to taxpayer accounts.
Centralized Contact Center           A non-major project for identifying and deploying
Forecasting and Scheduling Project   end-to-end workforce management solutions with
                                     workforce planning functionality.
Correspondence Examination           A major project that will incrementally replace the Report
Automated System Project             Generation System Batch application with a web-based
                                     environment. It will allow inventories to be managed at a
                                     corporate level.
Correspondence Imaging System        A major project that captures images of correspondence
Project                              from taxpayers that are intended to be worked by
                                     Accounts Management organization employees.




                                                                                         Page 15
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight



Counsel Automated System             A major project that provides the automated tools that
Environment Project                  Office of Chief Counsel employees require to accomplish
                                     their official duties in the most cost-effective and efficient
                                     manner. This project consists of a number of core
                                     functions that have been implemented on a standard
                                     hardware platform nationwide, integrating new and
                                     existing systems.
Decision Support and Data Capture    A non-major project that will develop a comprehensive set
Project                              of tools and applications to extract and manage data from
                                     paper documents for use in decision support, including
                                     ranking, issue scoring, issue selection, workload selection
                                     capabilities, and support case building, and provide
                                     increased ability to share information.
Document and Imaging                 A non-major project that will develop enterprise
Management Project                   capabilities to guide Document Management projects.
Enterprise Application Integration   A major project that is a main component of the IRS
Broker Project                       Service Oriented Architecture that allows modernized
                                     systems to use common infrastructure security and
                                     application services to access and leverage systems and
                                     data repositories across heterogeneous platforms.
Enterprise Disk Encryption Project   A major project that provides encryption for IRS IT,
                                     including desktop and laptop computers.
Executive Steering Committee         A committee that oversees investments, including
                                     validating major investment business requirements and
                                     ensuring that enabling technologies are defined,
                                     developed, and implemented.
Expanded Compliance Data             A non-major project that will improve existing workload
Warehouse Project                    identification and prioritization, allowing the IRS to better
                                     evaluate alternative treatments and ensure that cases
                                     receive the most efficient and effective process.
Filing Season                        The period from January through mid-April when most
                                     individual income tax returns are filed.
Form 94x to Service Center           A non-major project that will serve to improve the method
Recognition/Image Processing         of processing paper form returns by migrating from a
System Project                       labor-intensive, manual, transcription-based system to an
                                     automated image-based system.


                                                                                           Page 16
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight



Infrastructure Roadmap Initiative   A non-major project that was initiated to acquire
Phase III Project                   contractor expertise to support the continued effort of
                                    evaluating the IRS IT infrastructure and investment
                                    candidates while providing detailed descriptions of the
                                    investment path and making regular recommendations of
                                    investments for selection.
Interim Revenue Accounting          A major project that records tax revenue due the Federal
Control System Project              Government and maintains records of assessments,
                                    collections, accounts receivable, refunds, overassessments,
                                    and other elements of revenue accounting.
Issue Management System             A non-major project with the goal of replacing the Exam
Integration Project                 Return Control System, which is an outdated inventory
                                    control system, for the Large and Mid-Size Business
                                    Division.
Major/Non-Major Projects            Department of the Treasury specific criteria state that
                                    major IT investments (or projects) have an annual cost
                                    equal to or greater than $5 million, or total lifecycle costs
                                    exceeding $50 million. Projects not meeting these criteria
                                    are considered non-major.
Milestone                           Milestones provide for “go/no-go” decision points in a
                                    project and are sometimes associated with funding
                                    approval to proceed.
New Portal Implementation Project   A major project that delivers, in phased releases, an
                                    infrastructure build-out to support existing and planned
                                    applications available to internal and external users, such
                                    as taxpayers, tax practitioners, and IRS employees.
Notice Print Processing Project     A non-major project that supports all IRS notices and
                                    letters that reside on the Print System.
Server Consolidation and            A non-major project that consolidates the existing server
Virtualization Project              environment, maximizing the use of all server sources
                                    across the enterprise.
Tax Exempt and Government           A non-major project that will provide an automated
Entities Reporting and Electronic   examination case management system, consolidate
Examination System Project          multiple legacy systems, leverage existing income tax
                                    solutions, and provide computation tools and statutory
                                    compliance testing required by end users.

                                                                                         Page 17
                The Information Technology Enterprise Governance Structure
                           Needs Further Process Improvements
                               to Ensure Adequate Oversight



Tier 1 Encryption for Offsite   A non-major project that is designed to provide the ability
Storage and Tier 2 Encryption   to encrypt information generated by IRS Tier 1 and Tier 2
Project                         systems.
Tiered-Program Management       The structure includes 1) governance that refers to
Structure                       assignment of IT projects to an executive oversight level
                                and establishment of Program Management Offices to
                                oversee projects and 2) control that refers to reviewing
                                project performance through monthly assessments.




                                                                                   Page 18
                 The Information Technology Enterprise Governance Structure
                            Needs Further Process Improvements
                                to Ensure Adequate Oversight


                                                                                 Appendix V

                     Enterprise Governance Model

The enterprise governance model will account for all IT investment projects regardless of dollar
value, including projects considered to support existing operations and maintenance activities.
Figure 1 provides a schema of the new governance structure.
The following are the descriptions of the acronyms used in Figure 1 to describe the governing
bodies:
AWSS – Agency-Wide Shared Services
C&L – Communications and Liaison
CC – Office of Chief Counsel
CFO – Chief Financial Officer
CI – Criminal Investigation
EEO – Equal Employment Opportunity and Diversity
HCO – Human Capital Office
LC – Life Cycle
LMSB – Large and Mid-Size Business
MA&SS – Mission Assurance and Security Services
MEG – Modernization and Information Technology Services Enterprise Governance
Mgmt – Management
MIM – MEG Investment Management
MITS – Modernization and Information Technology Services
MVS – Modernization, Vision, and Strategy
OPR – Office of Professional Responsibility
SBSE – Small Business/Self-Employed
SOI/RAS – Statistics of Income/Research, Analysis, and Statistics
SSMC – Service, Support, and Modernization
TAS – Taxpayer Advocate Service
TEGE – Tax Exempt and Government Entities
W&I – Wage and Investment




                                                                                         Page 19
                      The Information Technology Enterprise Governance Structure
                                 Needs Further Process Improvements
                                     to Ensure Adequate Oversight


                              Figure 1: Enterprise Governance Model




Source: IRS Program Control and Process Management Division.




                                                                            Page 20
                   The Information Technology Enterprise Governance Structure
                              Needs Further Process Improvements
                                  to Ensure Adequate Oversight


                                                                                              Appendix VI

     Progress in Governance and Control Processes

Figure 1 shows the progress the IRS has made in establishing Program Management Offices and
performing health assessments by the Associate Chief Information Officers and business
operating divisions as of December 31, 2007.
           Figure 1: Establishment of Governance and Control Processes

                                     Governance and Control Process

      Associate Chief Information Officers        Program Management Offices         Health Assessments

           Applications Development                             Yes                           Yes

       End User Equipment and Services                           No                            No

               Enterprise Networks                               No                            No

              Enterprise Operations                             Yes                           Yes

               Enterprise Services                              Yes                           Yes

                   Management                                    No                            No

          Business Operating Divisions            Program Management Offices         Health Assessments
          Large and Mid-Size Business                           Yes                         Partial*

         Small Business/Self-Employed                           Yes                         Partial*

     Tax Exempt and Government Entities                         Yes                         Partial*

              Wage and Investment                               Yes                         Partial*

  * An assessment was conducted, but the scope did not include all seven key process indicators.




                                                                                                       Page 21
                    The Information Technology Enterprise Governance Structure
                               Needs Further Process Improvements
                                   to Ensure Adequate Oversight




                                       Governance and Control Process

                 Offices                   Program Management Offices               Health Assessments

    Agency-Wide Shared Services                          Yes                               No

                Appeals                                  Yes                               No

             Chief Counsel                               Yes                               No

  Commissioner’s Complex, Equal
    Employment Opportunity and
                                                         No                                No
 Diversity, and Office of Professional
             Responsibility

     Communications and Liaison                          No                                No

        Criminal Investigation                           Yes                               No

            Human Capital                                Yes                               No

        Chief Financial Officer                          No                                No

        Research, Analysis, and
                                                         No                                No
     Statistics/Statistics of Income
      Taxpayer Advocate Service                          Yes                               No

Source: Interviews of IRS staff and analysis of IT governance and control documentation.




                                                                                                    Page 22
    The Information Technology Enterprise Governance Structure
               Needs Further Process Improvements
                   to Ensure Adequate Oversight


                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 23
The Information Technology Enterprise Governance Structure
           Needs Further Process Improvements
               to Ensure Adequate Oversight




                                                      Page 24
The Information Technology Enterprise Governance Structure
           Needs Further Process Improvements
               to Ensure Adequate Oversight




                                                      Page 25
The Information Technology Enterprise Governance Structure
           Needs Further Process Improvements
               to Ensure Adequate Oversight




                                                      Page 26
